No. 20-454

In the Supreme Court of the United States
ALEX M. AZAR II, SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing BRIEF FOR RESPONDENT, via e-mail, this 14th day of December
2020. All parties had previously consented to electronic service consistent with this
Court’s order of April 15, 2020.
[See Attached Service List]
I declare under penalty of perjury the foregoing is true and correct. Executed on
December 14, 2020.

/s Andrew Tutt
Andrew T. Tutt
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
December 14, 2020

20-0454
ALEX M. AZAR, SEC. OF HEALTH & HUMAN SERVICES, ET AL.
MAYOR AND CITY COUNCIL OF BALTIMORE
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
202-514-2217
SUPREMECTBRIEFS@USDOJ.GOV
HASHIM M. MOOPPAN
COUNSELOR TO THE SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
HASHIM.MOOPPAN@USDOJ.GOV
BRINTON LUCAS
ASSISTANT TO THE SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
BRINTON.LUCAS@USDOJ.GOV
JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET NW, SUITE 600
WASHINGTON, DC 20001
(616) 450-4235
JBURSCH@ADFLEGAL.ORG

2

